                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A-05080059                                                                     Page 1 of 1




         We learned about three NSF proposals1 submitted by the PI2 that appeared to contain plagiarized
         text. We contacted the PIon the proposals to obtain an explanation for the apparently copied
         text. Because the PI's explanation did not refute the concern, we referred the allegation to the
         PI's institution for a detailed investigation. 3

         The institution, in accordance with its policy, initiated an inquiry. The institution's inquiry
         detennined that the subject had been careless, and the institution took no corrective action. Our
         review of the institution's inquiry determined that it failed to perfonn a thorough inquiry and·
         reached a conclusion that was not supported by documented or verified facts. Our investigation
         detennined that the PI plagiarized text without appropriate citations and, further, had not been
         fully forthcoming with all his responses.

         We provided our assessment and recommendation to NSF (attached). NSF accepted our
         recommendations and made a finding of research misconduct (attached).

         This case is closed and no further action will be taken.




         3 _ _ __




NSF OIG Form 2 (1lI02)
CONFIDENTIAL                                                                            CONFIDENTIAL




      National Science Foundation                    ,


        Office of Inspector General




                      Confidential
                  Investigation Report
                Case Number A-OS080059
                                  24 April 2008


   Tbis Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
      NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C §§ 552, 552a.

                                                                                    NSF oro Fonn 22b (11106)
CONFIDENTIAL                                                                       CONFIDENTIAL



                                      Executive Summary

Allegation:   Plagiarism

OIG Inquiry:
      OIG found that the PI (the subject) was the sole PI for three proposals to NSF that
      contained text and citations apparently copied from multiple source documents. OIG
      referred the allegation to the subject's Institution for investigation.

Institution Inquiry:
       The Institution, following its procedures, initiated an Inquiry. The Inquiry Team
        determined that although the subject had committed "some plagiarism," it was the result
       of carelessness, and concluded that neither an investigation nor sanctions were necessary.

OIG Assessment:
     OIG disagreed with the Institution's Inquiry Team, finding that it failed to perform a
     thorough inquiry and reached a conclusion that was not supported by documented or
     verified facts. OIG therefore continued with its investigation.

OIG Investigation
      OIG determined that the subject committed research misconduct.

               The Act: The subject plagiarized a combined total of 146 lines of text in four
       proposals and, along with some ofthe copied text, the subject copied a total of 19
       citations to references (embedded citations)i'with the text.

               Intent: OIG concluded the sUbject.acted knowingly.

               Standard of Proof: The preponder~ce of the evidence supported the conclusion .
       that the subject plagiarized these materials, including the embedded citations to
       references, into his NSF proposals.           ',. .

               Significant Departure: OIG determined that the subject's copying of text and
       citations represented a significant departure from community standards.

               Pattern: The subject's submission of four proposals to NSF containing
       plagiarized materials, during approximately a one-:year period of time, suggests that the
       subject's actions were a part of a pattern.

OIG Recommendations:
     Send a letter of reprimand to the subject informing him that NSF has made a finding of
     research misconduct;                        ;:

       Debar the subject from receiving federal funds for a period of one year commencing on
       the date of NSF's finding of research misconduct; ..




                                                1   i
CONFIDENTIAL                                                                   CONFIDENTIAL



     Require the subject to certify that proposals he submits to NSF do not contain
     plagiarized, falsified, or fabricated material for three years after the debarment period;

     Require that the subject submit assurances by a responsible official of his employer that
     any proposals submitted by the subject to NSF do not contain plagiarized, falsified, or
     fabricated material for three years after the debarment period;

     Bar the subject from serving as a merit reviewer for three years;

     and

     Require the subject to certify his completion of a course in research ethics within one
     year of the final disposition of the case.




                                              2
CONFIDENTIAL                                                                       CONFIDENTIAL



                                          GIG's Inquiry

As part of an inquiry, we reviewed three NSF proposals) submitted by the subject. We
determined that, collectively, the three proposals appeared to contain approximately 116 lines of
copied text, and 16 citations copied along with the text, from a total of 10 separate source
documents. We wrote to subject to request his explanation regarding the apparently copied text
(Tabs 1,2, and 3).                                           .

The subject responded (Tab 4) explaining that he "had permission to use a portion of the
materials.,,2 He further stated that he "was not familiar with NSF procedures and guidelines.")
He stated that he "did not pay close attention to work performed by [his] students that were used
in the proposals and cover a large part of the materials [OIG] identified.,,4 He discussed the
pressures on new faculty members early in their careers, describing how he was advised by
senior colleagues to utilize graduate students, when possible, to assist with his work. He said "in
this instance, it seems that I have failed to use this resource in its best possible way."s ..

The subject provided the following detailed explanation for the allegedly copied materials in
each of the three proposals:

Proposal 1: He explained that source documents A and D were referenced (references 22 and 8)
in Proposal 1. He explained this copied text was taken from these two source documents by a
graduate student. The subject stated he contacted the author of these two source documents to
explain the situation. He said the author expressed 'satisfaction about the subject's contacting
him and thought no further action would be necessary. Regarding source document B, the
subject explained that he had "several joint publications with [the author] on the same exact topic
and the theme presented in this source document.,,6 He said the article was not a journal
publication and the author allowed his use of this material. 7 Regarding source document C, the
subject explained the source was a web document and the author was part of a group that he
would be collaborating with in the future. The subject said he referenced this project in the
proposal (reference 13) and indicated in the proposal 8 he would be collaborating with the
author's research group. He said the author ofthis source document included a letter of support




2 Subject's
3 Ibid.
4 Ibid ..
5 Ibid.
6 Ibid.
7 Source document
8 Proposal 1,




                                                 3
'.

 CONFIDENTIAL                                                                                  CONFIDENTIAL



 for his project in the proposal. Finally, regarding source document E, the subject explained that·
 he referenced this source in the proposal (reference 106). He described the author of this source
 as "a good friend and an affiliated colleague.,,9 He said he talked to him about using the article
 and the author "has no problem"lo with the subject using the text.

 Proposal 2: Regarding source document F, the subject stated the "couple of sentences that
 appear to be copied"ll were from a literature review note and he did not know if this source
 document was the original source for the text. Further, he said he tried to identify and contact
 the author of the report, but was unsuccessful. Regarding source document G, the subject
 explained that he contacted the author and "inf9rmed him about the issue with the use of few
 short sentences from his work. He is fine with the case.,,12 Regarding source document H, the
 subject explained it was a web document that presented his own thesis.

     Proposal 3: Regarding source document J, the subject explained he included it as a reference in
     his proposal (reference 31). He said the author was his former graduate advisor~ He said he has
     worked with his former advisor on many projects and proposals, including Proposal 3. He said
     he had permission to use these materials. Finally, with source document K, he explained that it
     was the same source document as D. Further, he said the information it contained is common
     and is presented in many sources on this topic.

     The subject summarized his response by asserting that the copied material, while not properly
     referenced, was chiefly to discuss prior work and describe the literature. He responded that the
     copied materials did not include the research ideas or met~odologies, and that:

                  lack of information on NSF procedures has resulted in the careless use of student-
                                                             . Considering all this and the fact that
                  generated work that was not well referenced.                             .

                . none of my NSF proposals have been funded, I sincerely hope that you can accept
                  this incident as an honest mistake. [13]             . . .                    .




     After reviewing the subject's response, we accepted hisexplanation regarding materials copied .
     from source document H. However, we determined that there was sufficient substance to the
     allegation and referred the matter to the subject's Institution (Tab 5) for investigation. 14

                                                  Institution IS Inquiry

 The Institution followed its Policy and Procedures, initially convening "an Inquiry Team whose
 purpose was to determine whether there was sufficient credible evidence of academic misconduct
 to warrant a full-scale investigation.,,15 The Inquiry Team report is attached at Tab 6.

     9 Ibid,_
     10 Ibid.
     II Ibid.

        Sub~ect s    response,   .
     12
     13 Ibid
            · " ".-.       . - .
     14   Ou;   referr~l letter was directed to
     15




                                                           4
CONFIDENTIAL                                                                           CONFIDENTIAL




The Inquiry Team provided the following summary of its findings:·

         1. There is no falsification or fabrication of research results or data.
         2. There is no attempt to take credit for research results or data or discoveries
            .done by other people .
       . 3. The substance ofthe matter here is the plagiarism.

    The plagiarism has occurred and was admitted by [the subject] in at least three of the
ten alleged cases ..
    In all cases, the plagiarism occurred because he used his student' s project report in
copying the material and did not know that they originally copied exactly from other
sources.
    No substantive ideas were plagiarized. It happened only in literature review sections
and objectives sections, which are expected to be similar (but not, identical among
competing proposals).                                          . .
    The plagiarism was not done deliberately, but simply a result of carelessnessY6]

 The Institution determined:

        Differences of interpretation or judgment, or honest error, do not constitute
        academic misconduct ... (Section III, p.4). There is not falsification or fabrication
        or taking credit for someone else's discoveries. The plagiarism occurred in the
        background material section of the proposals (none of the proposals was funded).
        It results from carelessness and was an honest mistake made by a junior faculty
        member and he admitted his mistake in his letter to NSF dated November 21,
        2005, and has been very honest and cooperative with our committee. [The
        subject] has been counseled about these oversights and advised on procedures that
        can be instituted to insure that they not re-occur. Therefore, we do not
        recommend      a full-scale investigation. Therefore, we recommend that no
        sanctions be imposed on [the subject]. [17]

 The Institution's Chancellor, in a 16 May 2006 letter to the subject, agreed with the
 recommendations in the Report and closed this matter with no further action. 18

                                    DIG's Assessment ofthe Report

   We evaluated the information provided by the Institution as part of our own investigation. The
." Institution determined that the subject did plagiarize some of the material, but that his plagiarism
   did not constitute research misconduct. We concluded, however, the Institution failed to do a
   thorough job in reviewing and evaluating this matter .

. Some of the problems we noted with the Inquiry Team report included:

 16
                            Repo~
 17
 18




                                                   5
-,.
CONFIDENTIAL                                                                          CONFIDENTIAL




     1. A lack of effort to verify infonnation provided by the subject:

            a. The Inquiry Team failed to verify if any student had actually prepared the text the
               subject copied into his proposals as he claimed, and, if so, if any student who had
               prepared the text knew it would be used in one of the subject's proposals to NSF;

            b. The Inquiry Team failed to verify whether the authors of some of the' source
               documents that the subject contacted after the fact for pennission were made fully
               aware ofthe extent of the subject's copying. Without a more complete picture of
               the degree of copying, it would be difficult to know what each of these authors
               might say.

     2. 'In addition, the Inquiry Team and the Institution used questionable standards of
         scholarship to assess the allegations. These included:

            a. The Inquiry Team stated, although plagiarisrv. occurred, it "happened only in
               literature review sections and objectives sections, which are expected to be similar
               (but not identical among competing proposals)." This is contrary to NSF's
               expectation as stated in the Grant Proposal Guide is that all submitted proposals
               should display the highest scholarly standards(GPG section J.D.3);

            b. The Inquiry Team stated that the "plagiarism occurred in the background material
               section of the proposals (none ofthe proposals was funded).,,19 The acceptance of
               this suggests that scholarship is not an issue unless the proposal is funded;

            c. The Inquiry Team did not consider the copied citations (embedded citations)
               copied with the text an issue. These embedded citations, copied along with the
               text, suggest the subject used the intellectual efforts of the authors of the source
               documents by copying not only their words, but their intellectual efforts to find
               independent support for their text.                                     .

Based oJ? our analysis, we believe the Inquiry Team did not do a credible job of assessing the
allegation. Therefore, we detennined it appropriate to initiate our own investigation and not
pursue the matter further with the Institution.

                                         DIG's Investigation

We notified the subject that we were continuing our investigation following the receipt of the
Institution's report (Tab 7). Because the subject submitted a total of six proposals to NSF during
approximately a one-year period, we reviewed three other proposals submitted by the subject for
possible copied materials. As a result, we discovered an additional 37 lines of apparently copied
text in Proposal 4 as well as three more copied embedded citations to references. We wrote to the
subject (Tab 8) again, requesting more detailed infonnation and explanations concerning his        .
claimed use of students' work as well as his described contacts with some of the authors of several
19




                                                  6
•

        CONFIDENTIAL                                                                          CONFIDENTL\L



        of the source documents. In addition, we included a copy of Proposal 4 with theI alleged copied
        text and embedded citations annotated and cross-referenced to four source documents. We
        requested his comments concerning this additional apparently copied text (Tabs 9 and 10).

        The subject's response (Tab 11) was short, providing no specific answers to ourl specific questions
        either with respect to Proposals 1, 2, 3, or 4. Instead, he expressed his regret ana apologized for
        the trouble he had caused. Repeating what he had said in his initial response to bur letter of
        inquiry, he wrote:

                ... lack of knowledge about NSF procedures and requirements has been the main
                reason for this trouble and difficult situation. As you probably knowiall of my
                education has been outside the United States and prior to this case, unfortunately I
                never had any form of training or knowledge about different types of plagiarism
                cases or research integrity issues and rules that can be applied to proposals.
                While this cannot be a valid reason to justify my wrongful behavior, I ~elieve my
                biggest mistake was that I followed my personal jUdgment and carelyssly used
                student generated material and some literature review from my close $ends and
                colleagues \ in the background sections of the proposals without carefully
                reviewin§ their referencing accuracy and without knowing this is a wrong
                practice.! 0]

        ,Further, he explained how he obtained permission after the fact to use materials, which he admits
         did not eliminate his mistake. He also explained that he took two ethics courses and was taking
        other steps to ensure he understands the applicable rules.                       I
        The subject concluded:
        I

                I have been observing a self-imposed restraint from submitting any new proposal
                to NSF for more than a year now and will continue this till this investigation is
                finalized. While I hope this letter can provide you with more information about
                the nature of the problem and the reason for my wrong behavior, I wo~ld like to
                express that I do accept all the responsibilities about this case and will He ready to
                accept any verdict and penalty NSF may decide about this case.!21]

        In response to our investigation letter, the subject appeared to de-emphasize the role of his
        graduate student in copying the text. He also failed to provide us with any information regarding
        the graduate student he alleged to have copied the text. Instead, the subject seethed to accept
        responsibility for the act. Therefore, we are lead to conclude that there was no kraduate student
        involved in the copying of the text.

        In the subject's initial response (Tab 4), he told us that he contacted several oftfue authors of these
        source documents to explain what he had done and had received after the fact aJproval to use the
        copied materials. In our second letter to the subject (Tab 8), we asked him to prbvide additional
        information about what he had told the authors of the source documents when hb contacted them .

    •   20   Subje~ _ r e s p o n s e , _
        21Ibid,~



                                                          7
,CONFIDENTIAL                                                                         CONFIDENTIAL



Because he did not answer this request for infonnation, we wrote to two of the authors (author 1,
Tab 13, and author 2, Tab 14) requesting infonnation related to the subject's cobtact about the
copied materials.

 Both authors responded (Tabs 15 and 16) that, although each had been contacteu by the subject,
 neither had been told nor provided with a full description of the extent of the co.~ying by the
 ,
  subject. Both described their concerns about what the subject
                                                              ,
                                                                 had done,expressing
                                                                          I
                                                                                          disapproval.
:In particular, author 1 (Tab 15) was extremely surprised at the amount of copieq material, and the
,fact that material copied from him involved three proposals submitted by the subject, not just one.
  Further, author 1 considered some of the copied text not only intellectual theft o'f the text but of
  one of his ideas:

                                            DIG's Assessment

iNSF's Research Misconduct Regulation states that a finding of misconduct requires:

:           (1) There be a significant  dep~re      from accepted practices of thi relevant
            research community; and (2) The research misconduct be ¢ommitted
            intentionally, or knowingly, or recklessly; and (3) The allegation be ptoven by a
            preponderance of the evidence. [22]

The subject replied to our letters but he did not respond fully to many of the spe1cific questions as
we attempted to detennine what had happened. For example, he failed to proviue the specific
names of students with respect to each alleged copied section that he claimed in~olved their input,
or copies of the documents that he allegedly received and used to copy the text kd citations.

                                                                                 ~e
As a result of the subj ect' s failure to provide all of our requested information, contacted two of
the authors (authors 1 and 2) of source documents that the subject had told us h~ had contacted and
explained the situation related to his copying of text. Our investigation revealed that he had not
provided accurate infonnation to either of these authors.
I
,
                                                 The Act

Our investigation detennined that the subject copied approximately 146 uniqu,e'ilines of text,
including 19 embedded citations (15 of which were used only with the copied tJxt), taken from 13
separate source documents into Proposals 1, 2, 3, and 4. The total amount of pl~giarized material
is significant, the text alone representing more than 4 pages (see table below). Further, the number
'of embedded citations copied along with the plagiarized text is very significant,lsuggesting that he
may not have read these references at all, especially with the 15 embedded citations that were used
only as part of the copied text in his proposals.             '            .      I




22   45 C.f;R. § 689 .2(c).


                                                   8
,-   -~.-




      :CONFIDENTIAL                                                                        CONFIDENTIAL



           Proposal    Number of Lines          Number of Embedded Embedded Citations Used Onl
                                                    Citations         With Plagikrized Text
      ;        1               56                       12                            10
               2               19                       1                      -~
               3               34                       3                       ~
               4               37                          3                          2
      :
             Total            146                       19                            15
                                            ;


                                                                              .        I
      The subject provIded no eVIdence to the InqUiry Team, or to us, regardmg text allegedly copIed
                                                                                  -




      by his graduate students. We consider it more likely than not that the subject hihtself copied the
      text.



       We concluded that the subject acted knowingly when he copied text and citatiot;ls into his NSF
     'proposals.
      , -
                    The subject argued that he was not -fully aware of the expectations ofI scholarship in
      'proposals to NSF because he had not been trained in the U.S. However, the NSf guidelines
       clearly state that authors of proposals are expected to adhere to appropriate sch~larship when
       submitting proposals. 23 Moreover, the subject received his Ph.D. degree from ~_ respected and
      well-known Canadian research institution. Subsequently, he was a Post Doctor~l Candidate at two
      ,different Canadian research institutions for one year, one of which was at the inktitution from
       which he received his Ph.D. Following this, the subject was an assistant profe~sor for three years
       at two different U.S. institutions prior to his submission ofthese proposals. 24 Therefore, we find
       the subject's excuse that he lacked appropriate training unpersuasive. _

                                                 Standard ofProo{

      A finding of research misconduct requires proof by a preponderance of the evidence. We
      concluded the preponderance of the evidence indicates that the subject copied        materials into
      ,his proposals without appropriately distinguishing the text from his own work.    addition, the
      preponderance of the evidence indicates that the subject copied 19 references             citations)
      along with the text into four of his proposals in exactly the same location as    appeared within
      'the copied text in the source documents. In copying text and 19 references,- the   ect
      significantly departed from the generally accepted practices of scholarship in    Engineering
      Community. Since the preponderance of evidence supports the conclusion that         subject acted
      knowingly when he copied these materials, we conclude the subject committed         . . smand
      therefore committed research misconduct.




                                                       9
.,
~4. i
    I



    ·CONFIDENTIAL                                                                            CONFIDENTIAL




                                           GIG's Recommended Disposition

     In deciding what actions are appropriate when making a finding of research misconduct, NSF must
    ~onsider severa~ factors ..These factors include howserious.th~ misconduct wa~; the degree of
     mtent, whether It was an Isolated event or part ofa pattern; Its Impact on the research record; and
    ,                              25
    :other relevant circumstances.

                                                      Seriousness

        Plagiarism strikes at the heart of research integrity and is an unacceptable practIce within the
        research community. In addition,

                   NSF expects strict adherence to the rules of proper scholarship and 'tttribution.
                   The responsibility for proper attribution and citation rests with authors of a
                   proposal; all parts of the proposal should be prepared with equal cate for this
                   concern. Serious failure to adhere to such standards can result in findings of
                   research misconduct. NSF policies and rules on misconduct in sdience and
    i.
    1
                   engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
                   in 45 CFR Part 689. (GPG section 1.B.(10/2003)).

     The amount of plagiarized text was considerable and substantive, representing over 4 pages of
     copied text. In addition, the 19 embedded citations incorporated as part of the ~lagiarized text
     suggest thatthe subject copied and pasted these sections of text. Further, 15 of~hese embedded
     citations to references were used only with the plagiarized text (see previous Table) suggesting that
     the subject inappropriately used the intellectual efforts of the authors who wrotJ the text,
     enhancing his own apparent efforts and, further, makes it plausible that he neve} actually read any
     of these 15 references. In addition, one of the embedded citations, source docufuent F, 26 did not
    'appear in the reference list of the proposal. This clearly supports the conclusioJ that the subject
    ;copied the citations and in this case failed to include it in his reference list. Th9 amount of copied
    :text in c?njunction with the number C}f copied citations for references makes the subject's actions
     very senous.

                                                    Degree of Intent

    Although the subject responded to our letters, he failed to provide sufficient information related to
    several key aspects of this case. As a result of our investigation, we found no e~idence to mitigate
    our conclusion that the subject knowingly plagiarized text (about 146 lines) and 19 references into
    four NSF proposals he submitted over about a one-year period.

    ;The subject argued that he was not fully aware of the expectations of scholarship in proposals to
    NSF because he had not been trained in the U.S. However, we found:



        25
             45 CFR § 689.3(b).
    :26 _         Proposal 2,



                                                         10
 CONFIDENTIAL                                                                         CONFIDENTIAL



     1. The subject spent sufficient time at various English speaking institution~ both as a student
        and as a faculty member to have become aware of the expectations of scholarship (see
        footnote 24), and

     2. The subject has shown that he does understand how to appropriately quqte text. In
        Proposal 2, for example, on page 6 and again on page 7 (Tab 17), the subject clearly
        distinguished and appropriately cited text he copied.

 As we investigated the subject's set of claims that he told authors what he had done and received
 assurances that it was not a problem, we discovered that for the two source docJment
                                                                                  I
                                                                                        authors. we
 contacted, he had not be completely honest about the extent of his copying. This failure to fully .
 .inform these two authors suggests that he was aware that what he had done was wrong and hoped
 to minimize responses from them.

  Finally, the subject's failure to provide any documents to support his contention that students had
 'prepared some of the text, which he copied, suggests that he actually copied all ff the text himself.

The subject's actions occurred over a one-year period of time. His contention that he only copied
:background information is contested by author 1 who responded that one sectioh of the text he
'copied from one of author l' s works contained an idea original to author 1.               .

                                                Pattern .

The subject submitted six proposals over approximately a one-year period, four of which
.contained plagiarized material. This suggests that the subject's actions were a p,art of a pattern.
                 .                         .



                                     Impact on the research record

There is no evidence of any impact on the research record as a result of the plagiarism in the
!proposals submitted to NSF ..

                                         Aggravating Factors

   The subject mislead the Inquiry Team and our office into believing he had fullYI disclosed his
  actions to the authors of the source documents.· However, we learned that, although he contacted
  'many of the authors after we contacted him asking about the copied text, both oif the authors we
   contacted were surprised about the amount of copied materials, with one expres'sing added concern
   over an idea included in some of the copied text. The subject's attempt to masM the seriousness of
   his copying to the authors of the source documents, elicited their post Jacto approval. This, in tum,
   apparently persuaded the Inquiry Team that he had adequately atoned for his misconduct, which
. was not true. This behavior on the part of the subject elevates the seriousness of this case.

                                          Subject's Response

 The subject's response to the draft report of investigation is at Tab 18. In addition to his written
 response, the subject requested and was granted an opportunity to meet with DIG investigators to



                                                  11
CONFIDENTL\L                                                                       CONFIDENTL\L



  present addit,ional information, which he did in a meeting held on Wednesday, March 19,2008.
'During the meeting, the subject reiterated the information contained in his wri~en response.. In
  addition, he provided a copy of an email (Tab 19) he sent to one ofthe authors pefore we contacted
  that author about this matter (Tab 14). This email established that contrary to the author's
i statement to OIG investigators' (Tab 16), he had been contacted by the subject Jrith specific

  information regarding the alleged plagiarism .. However, despite the additional Iinformation the
  subject provided in his written and verbal responses to the draft report of investigation, and the
;email, we found no reason to change our recommendations.

                                           Recommendation

Based on the evidence, OIG recommends that NSF:

    •   Send a letter of reprimand to the subject informing him that NSF has made a finding of
        research misconduct;

    •   Debar the subject from receiving federal funds for a period of one year commencing on
        the date of NSF' s finding of research misconduct;

    •   Req,!ir~.the sU.bject to ce~ify that p~oposals he submits to NS~ do not .contain·
        plagIanzed, falSIfied, or fabncatedmatenal for three years after the debarment penod;

    •   Require that the subject submit assurances by a responsible official orlhis employer that
        any proposals submitted by the subject to NSF do not contain plagiarized, falsified, or
        fabricated material for three years after the debamient period;

    •   Bar the subject from serving as a merit reviewer for three years

        and

    •   Require the subject to certify his completion ofa course in research ethics within one
        year of the final disposition of the case.

The subject's certifications and proof of an ethics course should be sent to the Associate
Inspector General for Investigations for retention in OIG's confidential file on this matter.




                                 ',,-. .


                                                12
                                                                           \,
    '.   ',~


    ~.




                                                  NATIONAL SCIENCE FOUNDATION
                                                       4201 WILSON BOULEVARD
                                                      ARLINGTON, VIRGINIA 22230



                      ,zf~""
                     ~
                                                          SEP 2 5 2008

                     OFFICE OF THE
                    DEPUTY DIRECTOR




                CERTIFIED MAIL --RETURN .RECEIPT REQUESTED

               . Dr. Abolfazl Mohammadian




                        Re: Notice ofP~oposed Debarment and Notice ofResearch Miscondl4ct Determination

                Dear Dr. Mohammadian:

                  As documented in the attached investigative report prepared by the National Science
,                 Foundation's ("NSF') Office oflnspector Gener~l (''OIG''), you served as the ~rincipal



\
I

                . investigator on four proposals submitted to NSF from 2003-2005. These propo~als contained
                  plagiarized materiaL In light of your misconduCt, this letter serves as fonnal n9tice that the
                  National Science Foundation ("NSF") is proposing to debat:You from directlYQr indirectly
                  obtaining the benefits of Federal grants for a period of one year. During your pbriod of
                . debarment, youwill be precluded from receiving Federal financial and non-finJncial assistance
               . and ~e~efits under n~n.-procurement Federal programs and activities. In additi9n, you   will   be
                  prohibited from receiving any Federal contracts or approved subcontracts unde~ the Federal
                 Acquisition Regulations {"FAR"}. Lastly, during your debarment period, you will be barred
                  from having supervisory "responsibility, primary management, substantive contr6l over, or
                  critical influence on, a grant, contract, or cooperative agreement with any agenc~ ofthe
                 Executive Branch ofthe Federal Government.              .                         \.

                In addition to proposing your debannent, I am requiring that"YQu complete a resbarch ethics
                course covering plagiarism, and certify in writing" to the OIG that you have com~leted such a
                course. Furthermore, for three years after the period of debarment expires, I  amirequiring you to
                submit certifications and assurances by a responsible official of your employer tpat any
                proposals or reports submitted to NSF do not contain plagiarized, falsified, or fabricated
                material. Lastly, you are barred from serving as a reviewer of NSF proposals fot three years.
                                           !




                                                                                               Page 2
  Research Misconduct and Sanctions other than Debarment

 . Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
   plagiarism in proposing or performing research funded by NSF ..." 45 CFR 689.1 (a). NSF
   defines "plagiarism" as ''the appropriation of another person's ideas, processes, results or words
   without giving appropriate credit." 45 CFR 689.1 (a)(3). A fmding of research misconduct
   requires that:

          (I) There be a significant departure from accepted practices of the relevant research
              community; and
          (2) The research misconduct be ~mmitted intentionally, or knowingly, or recklessly;
              and
          (3) The al1egationbe proven by a preponderance of evidence.

  45 CFR 689.2(c).

    As the OIG's report demonstrates, you copied text from mUltiple sources without providing
  . proper. attribution for such material. By submitting proposals that copy the ideas and words of
/ another without adequate attribution, as described in the OIG report,you misrepresented
    someone else's work as your own. Thus, your conduct unquestionably constitutes plagiarism. I
    therefore conclude that your actions meet the applicable defmition of "research misconduct" set
    forth in NSF's regulations.

  Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
  misconduct based on a preponderance ofthe evidence. 45 CFR 689.2(c). After reviewing the
  Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
  plagiarism was committed knowingly and constituted a significant departure from accepted
  practices oftherelevant research community. I am, therefore, issuing a finding of research
  misconduct against you.

  NSF'sregulations establish three categories of actions (Group I, II, and III) that can be taken in
  response to a finding of misconduct. 45 CFR 689 .3(a). Group I actions. include issuing a letter
  of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
  that an institution or individual obtain special prior approval of particular activities from NSF;
  and requiring that an institutional representative certify as to the accuracy of reports or
  certifications of compliance with particular requrrements. 45 CFR 689.3(a)(I). Group II actions
  include award suspension or restrictions on designated activities or expenditures; requiring
  special reviews of requests for funding; and requiring correction to the research record. 45 CFR
  689. 3( a)(2). Group. III actions include suspension or termination 0 f awards; prohibitions on
  participation as NSF reviewers, advisors or consultants; and debarment or suspension from
  participation in NSF programs. 45 CFR 689.3(a)(3).
                                                                                             Page 3
  In detennining the severity of the sanction to impose for research misconduct, I have considered
  the seriousness of the misconduct; the determination that it was committed knowingly; the
. detennination that it was part of a pattern; your willingness to accept responsibility for your
  actions; and the fact that your conduct did not have an impact on the published research record. I
  have also considered other relevant circumstances. 45 CFR 689.3(b).

 I, therefore, take the following actions:

     •   By September 15,2009, you are required to complete a course on research ethics
         covering plagiarism. You must certify to the OIG that you have done so. Such
         certification should be sent to the OIG, 4201 Wilson Boulevard, Arlington, VA 22230.

     • . For three years from the end of your debarment period, you are required to certify to NSF
         that any proposals, reports, or papers you submit in connection with NSF-funded research
         do not contain plagiarized, falsified, or fabricated material.

     •   For three years from the end of your debarment period, you are required to submit to NSF
         assurances by a responsible official of.your employer that any proposals or reports you
         submit in connection with NSF-funded research do not contain plagiarized, falsified, or
         fabricated material.

     •   You are prohibited from serving as a reviewer of NSF proposals until September 15,
         2011.



 Debarment

 Regulatory Basis for Debarment

 Pursuant to 2 CFR 180.800, debarment may be imposed for:

         (b)    Violation of the terms ofa public agreement or transaction so serous as to affect
                the integrityof an agency program, such as -

                (I)     A willful failure to perform in accordance with the terms of one or more
                        public agreements or transactions; or          .


                (3)     A willful violation of a statutory or regulatory provision or requirement
                        applicable to a public agreement or transaction.

In any debarment action, thegovemment must establish the cause for debannent by a.
preponderance of the evidence. 2 CFR 180.850. In this case, you submitted four proposals to
l'   ~.   y.   •




                                                                                                               Page 4
                    NSF which contained plagiarized text. Thus, your action supports a cause for debarment under 2
                    CFR 180.800(b).


                    Length of Debarment

                    Debarment must be for a period coqunensurate with th~ seriousness of the causes upon which an
                    individual's debarment is based. 2 CFR 180.865. Generally, aperiod of debarment should not
                    exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
                    180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
                    and mitigating factors s~t forth in 2 CFR 180.860, we are proposing debannent for a period of
                    one year.


                    Appeal Procedures for Finding of Research Misconduct and Procedures Governing
                    Proposed Debarment


                    Appeal Procedures for Finding of Research Misconduct

                     Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal ofthis
                   . fmding, in writing, to the Director of the Foundation 45 CFR 689.1 O(a). Any appeal should be
                     addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
                     Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period~ the
                     decision on thefmding ofresearch misconduct will become final. For your infonnation, we are
                     attaching a copy ofthe applicable regulations.


                   Procedures Governing Proposed Debarment

                   The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
                   decision-making~ Under our regulations, you have 30 days after receipt ofthis notice to.submit,
                   in person or in writing, or through a representative, infonnation and argument in opposition to
                   this debannent. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
                   consideration and may lead to a revision of the recommended disposition. If NSF does not
                   receive a response to this notice within the 30-day period, this debannent will become final.

                   Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
                   Foundation, Office of the General CollllSel, 4201 Wilson Boulevard, Room 1265, Arlington,
                   Virginia 22230. For your infonnation, we are attaching a copy ofthe Foundation'S regulations
                   on non-procurement debarment and FAR Subpart 9.4.
                                                                                 PageS
Should you have any questions about the foregoing, please contact    Assistant
General Counsel, at (703) 292-




                                                   Sincerely,


                                                   ~wJ(}JavJ
                                                   Kathie L. Olsen
                                                   Deputy Director



Enclosures:
Investigative Report
Nonprocurement Debannent Regulations
FAR Regulations         .
45 CPR Part 689




                                                                                         "   .
..
~




                                      NATIONAL SCIENCE FOUNDATION
                                           4201 WILSON BOULEVARD
                                          ARLINGTON, VIRGINIA 22230



                                              DEC 1 7 2008

          OFFICE OF THE
         DEPUTY DIRECTOR




     VIA CERTIFIED MAILIRETURN RECEIPT REQUESTED

     Dr. Abblfazl Mohammadian




             Re: Debarment


     Dear Dr. Mohammadian:

     On September 25, 2008, the National Science Foundation (''NSF'') sent you a Notice of Proposed
     Debarment and Notice of Research Misconduct Detennination, in which NSF proposed to debar
     you from directly or indirectly obtaining the benefits of Federal grants for a period of one year.
     The Notice sets forth in detail the circumstances giving rise to NSF's decision to propose your
     debarment. Specifically, NSF proposed your debarment for knowingly SUbmitting four
     proposals to NSF that contained plagiarized text. In the Notice, NSF provided you with an
     opportunity to respond to the proposed debarment.

     On October 21,2008, you filed a timely response to the Notice. In this response, you urged NSF
     not to debar you for several reasons including: (1) the plagiarism occurred primarily in the
     literature review and introductory sections of your proposals; (2) you did not have a clear
     understanding of the rules regarding attribution at the time you submitted the proposals; (3) you
     have refrained from submitting any NSF proposals during the pendency ofthe investigation; (4)
     you took responsibility for the mistakes you made and demonstrated contrition for them; and (5)
     debarment would have a detrimental impact on two of your graduate students, who are currently
     being funded by a cooperative agreement with the Federal Highway Administration ('~FHA").
     As detailed below, I am not persuaded by any of your arguments.

     First, your plagiarism was serious because you plagiarized the ideas and research objectives of
     others. The fact that some ofthe plagiarized text was included in the background sections of
                                                                                               - 2     -

. your proposals does not mitigate the seriousness of your misconduct.

. Second, your claim that you were not aware ofthe scholarly rules regarding attribution is not
  compelling. You received graduate education at several highly respected Canadian institutions.
                 .                  .

  Moreover, you served as an assistant professor at two different U.S. institutions prior to
 sUbmitting your proposals. Thus, you knew, or should have known, the rules of appropriate
 scho lars hip.

 Third, the two mitigatingfactors you present (i.e., the fact that you have not submitted an NSF
 proposal for three and a half years, and the fact that you admitted your misconduct) were
 considered in NSF's initial determination. I do not believe that either ofthese factors warrants a
 reduction in the one-year debarment period.

Lastly, NSF recognizes that debarring you might have a detrimental impact on your two graduate
students who are funded through a cooperativ~ agreement with FHA. The discretion to tenninate
this agreement lies with FHA. NSF, however, has a responsibility to protect the Federal interest
by taking action against you that is commensurate with your misconduct. Your arguments have
not convinced me to amend the proposal. Thus, I am issuing this Notice of Debarment.

Accordingly, you are debarred until September 25, 2009. Debarment precludes you from
receiving Federal financial and non~financial assistance and benefits under non-procurement
Federal programs and activities unless an agency head or authorized designee makes a
determination to grant an exceptiori in accordance with 2 CFR 180.135. Non-procurement
transactions include grants, cooperative agreements, scholarships, fellowships, contracts of
assistance, loans, ·loan guarantees, subsidies, insurance, payments for specified use, and donation
agreements.

  In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
  the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period ofthis
debarment. 2 CFR 180.925. During the debarment period, you may not have supervisory
  responsibility, primary management, substantive control over, or critical influence on, a grant, .
  contract, or cooperative agreement with any agency ofthe Executive Branchofthe Federal
. Government.

Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal ofthis
decision, in writing, to the Director of NSF. 45 CFR 689.1 O(a). Any appeal should be addressed
to the Director at:

                National Science Foundation
                4201 Wilson Boulevard
                Arlington, Virginia 22230


Ifwe do not receive your appeal within the 30-day period, this decision will become final.
;


                                                                                           - 3 -

    If you have any questions regarding the foregoing, please contact           Assistant General
    Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
    Room 1265, Arlington, Virginia, 22230.




                                                      Sincerely,


                                                    ~1()J-
                                                      Kathie L. Olsen
                                                      Deputy Director
